United States Attorney William J. Hochul, Jr.
Western District of New York


 FOR IMMEDIATE RELEASE                       CONTACT:          Barbara Burns
 December 30, 2011                           PHONE:           (716) 843-5817
 www.usdoj.gov/usao/nyw                      FAX:             (716) 551-3051


   ROCHESTER WOMAN SENTENCED FOR THEFT OF PUBLIC MONEY

    ROCHESTER, N.Y.-- U.S. Attorney William J. Hochul, Jr. announced today that
Gloria Pugh, 45, of Rochester, N.Y., who was convicted of theft of public money, was
sentenced to five years probation by U.S. Magistrate Judge Jonathan W. Feldman. Pugh
was also ordered to pay $18,140 in restitution.

      Assistant U.S. Attorney Tiffany H. Lee, who handled the case, stated that the
defendant completed paperwork for the Social Security Administration on behalf of her
minor daughter involving continued eligibility for Supplemental Security Income (SSI)
benefits. Pugh was aware that she needed to provide up to date information on her
statement of income and resources but failed to include information regarding three
properties she had acquired. The defendant knew that the disclosure of her assets would
affect the amount of benefits her daughter would receive.

     The sentencing is the culmination of an investigation on the part of Special Agents
of the Social Security Administration, Office of the Inspector General, under the
direction of Special Agent In Charge Edward J. Ryan.
.
